<html>
<title> - THE EVOLUTION OF TERRORIST PROPAGANDA: THE PARIS ATTACK AND SOCIAL MEDIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





  THE EVOLUTION OF TERRORIST PROPAGANDA: THE PARIS ATTACK AND SOCIAL 
                                 MEDIA

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 27, 2015

                               __________

                            Serial No. 114-1

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-852 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                  
                       
                       
                       

                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mark Wallace, chief executive officer, Counter 
  Extremism Project..............................................     6
Mr. J.M. Berger, author..........................................    40
Mr. Evan Kohlmann, chief information officer, Flashpoint Partners    46
Ms. Rebecca MacKinnon, director, Ranking Digital Rights, New 
  America........................................................    56

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mark Wallace: Prepared statement...................     9
Mr. J.M. Berger: Prepared statement..............................    42
Mr. Evan Kohlmann: Prepared statement............................    49
Ms. Rebecca MacKinnon: Prepared statement........................    58

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    77

 
                       THE EVOLUTION OF TERRORIST
                      PROPAGANDA: THE PARIS ATTACK
                            AND SOCIAL MEDIA

                              ----------                              


                       TUESDAY, JANUARY 27, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions and extraneous materials for the record 
subject to the length and limitation in the rules.
    Terrorists' use of social media has exploded over the past 
several years. Terrorist groups from ISIS to the Taliban use 
social media platforms to recruit, radicalize, spread 
propaganda and even raise money.
    Section 219 of the Immigration and Nationality Act states 
that it is unlawful to provide a designated foreign terrorist 
organization with material support or resources, including any 
property--tangible or intangible--or services, among them, 
communication, equipment, and facilities.
    If foreign terrorist organizations are using American 
companies to spread propaganda and raise money, the question 
that remains is: Is this a violation of American law? That is 
the question for us today.
    I asked the Department of Justice this question directly in 
August 2012. Their answer? They refused to say, as they put it, 
in the abstract whether a particular company is violating the 
law or not under this section. So they didn't give a definitive 
answer.
    American newspapers would have never allowed our enemies in 
World War II to place ads in, say, the New York Times for 
recruitment of people to go and fight against America. So why 
do social media companies allow terrorist content on their 
platforms?
    Terrorists know the benefit of social media. Social media 
is easy to use, it is free, and it reaches everyone in the 
world. We have seen this most recently with the attacks in 
Paris; and after the attack, terrorists and their supporters 
took to social media to praise the attack, recruit new 
jihadists and fund-raise.
    Twitter has become one of the terrorists most popular 
platforms. As you can see here on the monitor--I believe we 
have the monitors ready--a British jihadi in Syria is bragging 
about ISIS and is threatening America.
    We have another example of that. Here is an example of 
terrorists' use of social media. It is a Facebook fan page for 
Khorasan Group in Syria complete with a message board and 
photos.
    The Khorasan Group is a group set up by al-Qaeda and Syria 
to specifically attack the United States and Europe. In April 
2013, the al-Qaeda branch in Yemen known as AQIM held an online 
press conference on Twitter, allowing users to submit questions 
that were answered by the terror group and posted back on 
Twitter the following week.
    In February 2014, a Saudi cleric launched a fund-raising 
drive on Twitter for jihadists in Syria. The rise of the lone 
wolf terrorism in recent years has been in part fueled by 
terrorists' use of social media.
    The Boston bombers made two pressure cooker bombs. The 
recipes for those bombs were published before the attack in al-
Qaeda's Inspire magazine. That magazine was released and 
promoted on social media.
    Some people make the excuse that there is no point in 
shutting down a social media account because it will pop again. 
But that is not always true. For years, Twitter was asked to 
shut down an account of the designated foreign terrorist 
organization, al-Shabaab, which pledged allegiance to al-Qaeda.
    In 2013, al-Shabaab live tweeted its attack on the Westgate 
Mall in Kenya that killed 72 people. Twitter then shut down the 
account. Al-Shabaab tried to reopen accounts on Twitter but 
after getting shut down by Twitter each time, it finally quit.
    Twitter is far worse than its peers about proactively 
finding and removing terrorist content. One of our witnesses 
wrote in late 2013 that the gap between Twitter's practices and 
industry standards is large enough to raise the specter of 
negligence.
    YouTube is a popular platform for jihadists as well. Videos 
are especially effective in attracting and funding and 
donations. Every major video released by al-Qaeda is uploaded 
to YouTube and, as soon as they are released, to jihadist 
forums.
    ISIS posts videos on YouTube in a service called Vimeo that 
depict graphic violence. However, YouTube does try to remove 
them but can't get them all.
    In September 2010, I did send a letter to YouTube urging 
them to change their policy when it came to terrorist accounts. 
They did, allowing any user to flag a video for terrorist 
content, but have since changed that policy and instead take 
videos down if they post graphic content or train terrorists.
    Facebook is also a favorite social media site for 
terrorists and jihadists. Fortunately, Facebook has redoubled 
its efforts to proactively identify and remove that content.
    In 2011, the White House published a counter radicalization 
strategy that acknowledged terrorists' use of the Internet and 
social media to spread hate and violence. The report also 
committed the administration to devising a strategy to deal 
with this phenomena. However, no such strategy has been 
published by the administration.
    Then I sent a letter with a number of other colleagues in 
September 2012 urging the FBI to do more to reduce terrorists' 
use of Twitter. The FBI refused, saying they gained 
intelligence about groups and individuals from their social 
media activity, even though it is apparent that this social 
media activity recruits terrorists who want to kill.
    That may be true, but it must be weighed against the 
benefits of terrorist groups that enjoy this use because of the 
activity.
    The debate should take place and it should inform our 
policies about how to deal with this threat. At the very least 
we need a strategy, and that is the purpose--one of the 
purposes of this hearing.
    I will now yield 5 minutes to the new ranking member, Mr. 
Keating from Massachusetts, for his opening comments.
    Mr. Keating. Thank you, Mr. Chairman.
    Let me start off by thanking you for holding this important 
hearing and a timely hearing at that. Further, I would like to 
note this is indeed my first subcommittee hearing as ranking 
member and I look forward to working with you in the future.
    We begin this Congress with news of the terrible shootings 
in Paris. Our condolences continue to be with the friends and 
families of those victims and with all those who have been 
impacted similarly by senseless tragedies in Boston, New York, 
Brussels, Sydney, Peshawar, Nairobi and, unfortunately, the 
list can go on and on.
    This month's heartbreaking and gruesome attacks against 
Charlie Hebdo and Hyper Cacher market in Paris have 
resoundingly brought people together from across the Atlantic 
and from all walks of life to express their strong commitment 
to pluralistic, democratic and tolerant societies.
    Yet, the same space in which terrorists and criminals 
operate to recruit and radicalize like-minded or just plain 
hateful individuals in the same medium is indeed the same 
democratic type of medium where open societies exercise their 
very freedoms, the kind of freedoms that these extremists 
abhor.
    There is no doubt that social networking, the Internet and 
propaganda have become the premier recruitment and 
radicalization tools for terrorist gangs and those expanding 
their reach far into Europe and the United States.
    This leads to a problem where the simplest quickest 
strategies to eliminate this type of harmful influence can also 
compromise the very basis of a free society, in effect 
complementing the terrorists' cause.
    In a recent report issued by the bipartisan Policy Center, 
two former co-chairs of the 9-11 Commission argue that while

        ``the use of Internet to radicalize and recruit 
        homegrown terrorists is the single most important and 
        dangerous innovation since the terrorist attacks of 
        September 11, 2001. Approaches that are aimed at 
        reducing the supply of violent extremist content on the 
        Internet are neither feasible or desirable.''

    While advocating for the government to retain its 
capability for aggressive take downs of foreign-based Web sites 
to stop a terrorist attack, the report recommends a strategy of 
building partnerships with Internet companies, the private 
sector foundations, philanthropists and community groups to 
build capacity and to help potentially credible messengers such 
as mainstream groups, victims of terrorism and other 
stakeholders to become a more effective in advocating and 
conveying their messages.
    As a former district attorney, I too have seen the profound 
effect of working to raise the voices of those within 
communities across the U.S. that work toward peace and 
multicultural acceptance.
    While we debate ways in which to balance security needs in 
a free society, it is important to revisit our counter 
terrorism strategies to ensure that they are adequately 
incorporating the role of modern technology and communications.
    As I mentioned earlier, there is a larger piece of this 
puzzle, and that is the mind set of militants who come from 
Western nations to join brutal gangs that go on to rape, kill 
and divide thousands if not millions.
    As a transatlantic community, we can only fight the lure of 
terrorism by determining its causes and devising appropriate 
counter measures. In particular, I feel the messages promoting 
the heritage and very cultural history of the Mideast and North 
Africa will be important to help young people define their true 
identities instead of listening to backwoods propaganda seeking 
to destroy this history.
    Today, radicalization, online or otherwise, is occurring 
across the world in rural and urban settings, wealthy and poor 
communities and among all educational levels.
    In the long run, we must ensure that the course of action 
we pursue not only targets terrorist groups but the polarizing 
policies that often lead to societal division, and to do this, 
a balance between security and liberties must be maintained.
    The subject of today's hearing is of the utmost concern to 
our national security and I look forward to hearing from our 
witnesses and thank them for being here and their perspectives 
on this timely issue.
    Thank you, Mr. Chairman. I will yield back my time.
    Mr. Poe. I thank the gentleman.
    The Chair will recognize other members for their 1-minute 
opening statement. The Chair recognizes the gentleman from 
California, Colonel Cook, for 1 minute.
    Mr. Cook. Thank you, Mr. Chairman.
    I want to compliment you on having this hearing. As 
somebody who has been characterized as being born in Jurassic 
Park, this is a hearing which, I don't know how many years 
ago--10 years ago, what have you--didn't have a clue what was 
going on and, unfortunately, there is a lot of Americans that 
still do not understand social media and the importance of it.
    I am also somebody that spent a long time in the military, 
read all the books and everything else including Sun Tsu about 
knowing your enemy, and this new enemy that we have, 
international terrorism, which every week, every day something 
horrible happens and they are using a weapons system that, 
unfortunately, I and many of my colleagues were very, very 
naive in understanding this.
    I have had an education the last few years or I wouldn't be 
here. We all use it now. I think everybody in this room uses 
social media and it is something that young people they listen 
to, the 30-second, the 15-second sound bite, even a minute, and 
it is almost addictive.
    And, obviously, our enemies are enemies of democracy. They 
have used this so effectively in recruiting and finding out 
exactly how to get to people and using it as a strategy against 
us.
    So I actually believe we are going to need more of these 
hearings. Unfortunately, a lot of our colleagues couldn't make 
it. But this is the wave of the future because it works, 
unfortunately.
    So thank you again for having this very timely hearing. I 
yield back.
    Mr. Poe. Gentleman yields back his time. The Chair will 
recognize the former ranking member of this subcommittee, the 
gentleman from California, Mr. Sherman.
    Mr. Sherman. Judge, Bill, I am very much looking forward to 
working with you on the subcommittee in this Congress. I should 
point out that this subcommittee came into existence in 2003 
and for 12 years I have been either chair or ranking member of 
this subcommittee.
    It began as the Subcommittee on Terrorism, Nonproliferation 
and Human Rights. Two years later, the human rights part was 
transferred to another subcommittee. Then in the 110th Congress 
as well as the 111th, I was able to serve as chair of the 
subcommittee and persuade then-Chairman Lantos to add the 
economic jurisdiction of the full committee to this 
subcommittee, dealing with trade promotion, dealing with trade 
licensing and other limits on exports.
    And so I look forward to this next 2 years with the chair, 
the ranking member and all the members of the subcommittee.
    As to the matter at hand, I look forward to hearing from 
our witnesses on not only how we can be on defense and take 
down the bad stuff, but how we can be on offense and use social 
media and traditional media to get our message out.
    As to taking down the bad stuff, that is what First 
Amendment lawyers would call prior restraint if we did it 
through government fiat. So among our possible policies are to 
simply name and shame and nudge these Internet publishers, if 
you will, to take down the bad stuff.
    If we want to go further and use the power of the state to 
take down information, I think it is incumbent on Congress to 
craft a new statute defining what the responsibilities of these 
Internet companies are, and I yield back.
    Mr. Poe. I thank the gentleman.
    I will introduce the witnesses that we have before us today 
and then they will each be allowed to give us 5 minutes of 
their testimony.
    Ambassador Mark Wallace is the CEO of the Counter Extremism 
Project. He is a former U.S. Ambassador to the United Nations. 
Prior to his political work, practiced law as a commercial 
litigation attorney.
    Mr. J.M. Berger is an author and analyst studying 
extremism. He is also the founder of the Web site 
IntelWire.com, which publishes investigative journalism, 
analysis, and primary source documents on terrorism and 
international security.
    Mr. Evan Kohlmann is the chief information officer at 
Flashpoint Partners where he focuses on innovation and product 
development. Mr. Kohlmann has served as a consultant in 
terrorism matters to various government and law enforcement 
agencies throughout the world.
    Ms. Rebecca MacKinnon is the director of the Ranking 
Digital Rights program at New America. She is the co-founder of 
Global Voices Online and author of the book, ``Consent of the 
Networked: The Worldwide Struggle for Internet Freedom.''
    The Chair now will recognize Ambassador Wallace. We will 
start with you. You have 5 minutes.

   STATEMENT OF THE HONORABLE MARK WALLACE, CHIEF EXECUTIVE 
               OFFICER, COUNTER EXTREMISM PROJECT

    Mr. Wallace. Chairman Poe, Ranking Member Keating and 
members of the subcommittee, thank you for the opportunity to 
testify on the hijacking and weaponization of social media by 
extremist groups to radicalize and recruit new members and to 
plan violent attacks against innocent people.
    The evidence of social media's reach can be seen in the 
thousands of people who continue to pour into Syria and Iraq in 
response to online propaganda by radical extremist groups and 
the grim aftermath of terror attacks that bear witness to the 
power of social media to radicalize and encourage violence.
    This hearing can lead to a better understanding of the 
growing problem of social media abuse and a more coordinated 
and cooperative relationship between technology companies like 
Twitter and those who want to stop extremists from anonymously 
abusing social media platforms.
    American companies have led the world in revolutionary 
online technology and social media. Unfortunately, these open 
platforms are also the tools of choice to spread messages of 
hate and for extremist groups like ISIS to propagandize, 
radicalize, recruit and commit cyber jihad.
    A major focus of the Counter Extremism Project's work is to 
combat extremist recruitment, rhetoric and calls for acts of 
terror online, starting with Twitter.
    Through our crowd sourcing campaign, #CEPDigitalDisruption, 
we have researched and reported hundreds of extremists to 
Twitter and to law enforcement. The question today is whether 
or not companies like Twitter will partner to combat those 
extremists who hijack and weaponize social media for terror.
    We have reached out in the spirit of cooperation to 
Twitter. The response we get from Twitter is dismissive to the 
point of dereliction. A Twitter official has said publically 
that ``one man's terrorist is another man's freedom fighter.''
    This statement is insipid and unserious. Social media sites 
have a responsibility to act against extremists. An American-
born jihadi from Minneapolis operates on Twitter with the alias 
Mujahid Miski.
    He is one of the most influential jihadis using Twitter and 
has tweeted some of the most heinous content we have seen, 
including threats to behead CEP's president, the former 
Homeland Security adviser, Fran Townsend.
    He boasted he has been suspended from Twitter 20 times and 
keeps coming back, yet Twitter does nothing to remove his new 
accounts. As a result, we have been playing a never ending game 
of Whac-A-Mole in trying to stop him.
    We have raised these issues to Twitter. Twitter has not 
taken further action against him. I respectfully request that a 
copy of the tweets we have reported over the course of our 
digital disruption campaign be included along with my prepared 
testimony as part of this hearing's record.
    Mr. Poe. Without objection, it will be made part of the 
record.
    Mr. Wallace. Thank you, sir.
    I would like to clarify why our focus is on Twitter. In the 
case of jihadis online, Twitter is the gateway drug. This is 
where vulnerable people are first exposed to radical content. 
From Twitter, the conversation moves to platforms like AskFM, 
where those being recruited can ask questions, for example: 
What is life like in ISIS, or how can I get to Syria?
    Then the conversation moves to private chat applications 
like Kick or WhatsApp. The path I just described is not 
fictional. It is exactly how three Denver girls were 
radicalized and tried to join ISIS.
    We must stop recruitment at the gateway, Twitter. We stand 
ready to work with governments and any company in finding the 
right mix of remedies that effectively attacks this growing 
problem while protecting our values and liberties.
    There are immediate actions that Twitter should take. 
Twitter should grant trusted reporting status to governments 
and groups like ours to swiftly identify and ensure Twitter's 
expeditious removal of extremists online.
    The reporting process on Twitter is long and cumbersome. A 
more accessible reporting protocol should be added for users to 
report suspected extremist activity.
    America's leading tech company should adopt a policy 
statement that extremist activities will not be tolerated--
simple but important.
    Twitter has a system where people can verify their 
accounts. This concept can be the foundation for a tiered 
system whereby unverified accounts are restricted and subject 
to streamlined review.
    When one of the most influential and pro-ISIS Twitter 
accounts, ShamiWitness, was publically revealed to be an Indian 
businessman, it shook the cyber jihadi network. He immediately 
stopped his online jihad.
    Twitter should reveal detailed information, including the 
names and locations of the most egregious cyber jihadis. We can 
collectively agree that the most egregious of cyber jihadis do 
not deserve anonymity or the right to engage in hate and 
incitement of terror speech.
    The FBI shut down Silk Road. There are other enforcement 
successes: Online drug distribution, child pornography, tobacco 
sales and sex trafficking, among others. If we can confront 
these activities there are strategies that we can use on those 
who hijack and weaponize social media.
    Thank you, Chairman Poe, Ranking Member Keating and members 
of the subcommittee, and I would just like to introduce Alan 
Goldsmith, Jen Lach, Darlene Cayabyab and Steven Cohen who are 
really the brains of the operation because it depends on young 
people to understand these complicated networks. I just wanted 
to introduce them.
    [The prepared statement of Mr. Wallace follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. The Chair will next recognize Mr. Berger for his 
5-minute testimony.

              STATEMENT OF MR. J.M. BERGER, AUTHOR

    Mr. Berger. Thank you, Mr. Chairman, and thank you, members 
of the committee.
    I want to talk a little bit about the scope of the problem 
and sort of try and put some hard numbers on what we are 
talking about here because a lot of the discussion we have 
about this is often very general and on principle--we know it 
is bad but we don't know exactly what it is.
    We are going to focus on Twitter partly because it is 
easier to do this kind of analysis on Twitter and also, as the 
chairman noted and as Ambassador Wallace noted, Twitter has a 
particular problem with this that it is in the process of 
adjusting its approach to, as opposed to Facebook and YouTube 
who have made changes over the last couple of years.
    So in a forthcoming study on ISIS' use of Twitter, which 
was commissioned by Google Ideas and will be published by the 
Brookings Institution's project on U.S. relations with the 
Islamist world, technologist Jonathan Morgan and I set out to 
develop metrics that could define the size and function of the 
Islamic State's presence on Twitter.
    While our analysis is not complete, we can confidently 
estimate that throughout last fall at least 45,000 Twitter 
accounts were used by ISIS supporters. This figure includes 
accounts that were both created and suspended during the time 
it took us to collect the data.
    The size of the network has certainly changed since this 
estimate but it remains only a minuscule fraction of the 
overall Twitter user base. Our research began at the same time 
that Twitter started an aggressive campaign of suspending 
accounts so it reflects some of the effects of those 
suspensions.
    What it doesn't do is give us a baseline to look at to see 
what the environment without suspensions is, which is 
unfortunate, but the timing dictated that.
    Almost three-quarters of ISIS supporters on Twitter that we 
studied had fewer than 500 followers each. Only a handful had 
more than 20,000.
    Suspended users--people we were able to determine 
definitively had been suspended as opposed to changing their 
name or deleting their own account--had generally tweeted three 
times as often as those who were not suspended, and received 
almost 10 times as many retweets from other ISIS supporters.
    Suspended users averaged twice as many followers as those 
who were not suspended. When users are removed from the system, 
when they are suspended or they delete themselves or for 
whatever reason they stop taking part, we did see some evidence 
that the existing accounts compensate.
    So other people step up or new accounts are created. The 
accounts that already exist increase their activity. But the 
preliminary evidence suggests that they can't fully regenerate 
the network if suspensions continue at a consistent pace.
    One big part of this debate, you know, has been this Whac-
A-Mole concept. It is, like, you know, does it help to delete 
these accounts, does it help to suspend these people? And I 
think that so far what we are seeing is there is pretty good 
evidence that it does limit what they can do online.
    We confirmed at least 800 ISIS supporters suspensions 
between last fall and this month's and there are indications 
there were thousands more that we could not confirm, possibly 
well over 10,000 more.
    While tens of thousands of accounts remain, ISIS supporters 
online called the effects of these suspensions devastating. 
There are three important benefits to the current level of 
suspension.
    First, they reduce ISIS' reach among users at risk of 
radicalization. People don't spring from the womb fully 
radicalized. They have to find a path to radicalization, to 
talk to a recruiter, to get information about the movement. 
Suspensions don't eliminate that path but they increase the 
cost of participation.
    Second, while ISIS' reach has been reduced, enough accounts 
remain to provide an important open source intelligence. So 
that is the other piece of this debate, you know, is there 
valuable intelligence that we are losing out on when we suspend 
these guys.
    And, you know, if you have 30,000 or 40,000 accounts that 
are all very limited reach, you can get a lot of intelligence 
from that without necessarily allowing them to operate 
unfettered.
    Third, the targeting of the most active members of the ISIS 
supporter network, which is what is currently happening in 
terms of the Twitter suspensions we have seen, undercuts ISIS' 
most important strategic advantage on this platform, which is 
about 2,000 to 3,000 supporter accounts that are much more 
active than ordinary Twitter users.
    This is an explicit strategy of ISIS. They put out 
documents about it. They have a name for the group--they call 
them the mujahideen, which is Arabic for industrious--and they 
are the people who drive this activity.
    The reason we are talking about this now is that these over 
achievers who get online and are extremely active are able to 
drive a lot more traffic. They are able to cause ISIS hashtags 
to trend and get aggregated by third parties.
    They are able to influence search results. So if somebody 
is searching for information on Baghdad they might get an ISIS 
threat instead of whatever information they were trying to 
seek.
    So what we see right now is that there is a lot of pressure 
on this network and I think that there is a balance that we are 
pretty close to achieving. But there is definitely room for 
improvement.
    [The prepared statement of Mr. Berger follows:]
   

    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. The gentleman yields back his time.
    The Chair now recognizes Mr. Kohlmann for his 5-minute 
opening statement. Mr. Kohlmann?

  STATEMENT OF MR. EVAN KOHLMANN, CHIEF INFORMATION OFFICER, 
                      FLASHPOINT PARTNERS

    Mr. Kohlmann. Thank you, Mr. Chairman. Thank you, members 
of the committee.
    As more young people from the U.S. and other Western 
countries seek to depart to join jihadi front lines abroad, 
there has been an increasing public awareness of the role that 
online social media is serving and recruiting them to the 
cause.
    Yet, recently there has been a noticeable divergence from 
traditional jihadi chat forums to the slicker interfaces and 
enormous global audience that has been afforded by services 
like Facebook and Twitter.
    Indeed, the trend toward jihadists exploiting Western 
commercial social media platforms has been in full view in the 
aftermath of this month's terrorist attacks in Paris.
    Through relatively little is known about how the Kouachi 
brothers and Amedy Coulibaly were using social media, claims of 
responsibility for the attacks in Paris emerged quite quickly 
from al-Qaeda in the Arabian Peninsula, AQAP, all of which were 
distributed exclusively via Twitter.
    On January 9, AQAP's media wing used its account on Twitter 
to disseminate download links for a message from its official, 
Hareth al-Nadhari, praising the Paris attacks and lamenting 
only that, ``I wish I had been there with you.''
    On January 14, again, using the exact same Twitter account, 
AQAP distributed download links for a direct video recorded 
claim of responsibility for the Paris attacks from senior 
official, Nasr al-Ansi, in which he declared, ``The one who 
chose the target, laid the plan and financed the operation is 
the leadership of this organization.''
    In fact, as of right now, AQAP, which is a designated 
terrorist organization under U.S. law, has not one but two 
official accounts on Twitter: One for releasing videos and one 
for releasing breaking news updates.
    Nor is AQAP alone. Other allied factions such as al-Qaeda 
and the Islamic Maghreb have also begun to eschew the 
traditional route of publishing media on these forums and 
instead are releasing material directly on Twitter.
    Over the past 3 months, AQAP's public Twitter account has 
only been disabled by administrators on four occasions. Each 
time it has been disabled, AQAP has merely created a new 
account with the same name appended with 1, 2, 3, 4, 
respectively. There is not much mystery in which Twitter 
account AQAP will register next unless you have trouble 
counting to five.
    Nonetheless, Twitter is not the only offender here and this 
leads to another aspect of jihadi social media that surfaced as 
a result of Paris and that is the Internet video that featured 
Amedy Coulibaly claiming responsibility for the attacks in the 
name of ISIS.
    In the video, Coulibaly condemned recent Western air 
strikes on ISIS and threatened, ``If you attack the Caliphate, 
if you attack the Islamic State, we will attack you.''
    Links to this video were first posted on ISIS' main online 
chat forum, alplatformmedia.com and, naturally, the question 
that follows from this analysis is: How is ISIS able to operate 
its own official .com social media platform on the Internet in 
order to disseminate its media?
    And the answer to that question is another billion-dollar 
San Francisco-based company called CloudFlare, which aims to 
shield Web sites from being targeted by spammers, cyber 
criminals and denial of service attacks.
    CloudFlare in essence serves as a gatekeeper to control the 
flow of unwanted visitors to a given site. It has advanced 
detection features that thwart attempts by automated robots to 
scrape data from and monitor these forums.
    In fact, two of ISIS' top three online chat forums, 
including alplatformmedia.com, are currently guarded by 
CloudFlare.
    Without such protection, these sites would almost certainly 
succumb to the same relentless online attacks that have 
completely collapsed several major jihadi web forums in recent 
years.
    In 2013, after CloudFlare was accused of providing 
protection to terrorist Web sites, the company CEO insisted 
that,

        ``It would not be right for us to monitor the content 
        that flows through our network and make determinations 
        on what is and what is not politically appropriate. 
        Frankly, that would be creepy.''

    He also asserted,

        ``A Web site is speech. It is not a bomb. There is no 
        imminent danger it creates and no provider has an 
        affirmative obligation to monitor and make 
        determinations about the theoretically harmful nature 
        of speech a site may contain.''

    It is extremely difficult to reconcile the logical paradox 
that it is currently illegal under U.S. law to give pro bono 
assistance to a terrorist group in order to convince them to 
adopt politics instead of violence but it is perfectly legal 
for CloudFlare to commercially profit from a terrorist group by 
assisting them to disseminate propaganda which encourages mass 
murder.
    In fact, CloudFlare's CEO has been adamant that, 
``CloudFlare abides by all applicable laws in the countries in 
which we operate and we firmly support the due process of 
law.''
    The multi-billion-dollar U.S. companies who provide social 
media services to ISIS and al-Qaeda are well aware that the way 
American law is presently structured it is almost impossible 
for them to ever be held responsible for the mayhem that their 
paying users might cause.
    The only real incentive they have to address this problem 
is when it becomes so glaring, as it was in the case of James 
Foley, that they are briefly forced to take action to save 
public face.
    Permitting U.S. commercial interests to simply ignore vital 
national security concerns and earn profits from consciously 
providing high-tech services to terrorist organizations is not 
an acceptable legal framework in the 21st century.
    Thank you very much.
    [The prepared statement of Mr. Kohlmann follows:]
       
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. I thank the gentleman.
    Now we will hear from our final witness, Ms. MacKinnon, for 
your 5-minute opening statement.

 STATEMENT OF MS. REBECCA MACKINNON, DIRECTOR, RANKING DIGITAL 
                      RIGHTS, NEW AMERICA

    Ms. MacKinnon. Thank you very much, Mr. Chairman, Ranking 
Member Keating, members of the committee.
    So how do we fight terrorism and violent extremism, which 
are obvious problems as we have just been hearing, in the 
Internet age while not undermining the core principles and 
freedoms of democratic and open societies?
    As it happens, yesterday I returned from the Philippines 
where I participated in a conference of bloggers, activists and 
citizen journalists from all over the world, people who believe 
in freedom of expression, the open Internet and multicultural 
tolerance.
    I can tell you terrorists are not the only people who are 
using social media powerfully and effectively. However, many 
people connected to this community face serious threats of 
censorship and imprisonment when they write about subjects or 
advocate policy positions that their governments find 
threatening.
    In countries like Ethiopia, Russia, Turkey, Egypt, Morocco, 
China and elsewhere, some have even been charged under broad 
anti-terror laws that are habitually used as tools to keep 
incumbent regimes in power.
    In response to the tragic massacre in Paris, the French 
Government has called for United Nations member states to work 
together on an international legal framework that would place 
greater responsibility on social networks and other Internet 
platforms for terrorists' use of their services.
    In addressing the problem of terrorists' use of social 
networking platforms, I believe the United States should adhere 
to the following principles.
    First, multi-stakeholder policymaking. The U.S. opposes 
U.N. control over Internet governance because many U.N. member 
states, such as some of the ones that I just listed, advocate 
policies that would make the Internet much less free and open.
    Instead, the U.S. supports a multi-stakeholder approach 
that includes industry, civil society and the technical 
community alongside governments in setting policies and 
technical standards that ensure that the Internet functions 
globally.
    In constructing global responses to terrorists' use of the 
Internet, we need a multi-stakeholder approach for the same 
reasons.
    Second, any national level laws, regulations or policies 
aimed at regulating or policing online activities should 
undergo a human rights risk assessment process to identify 
potential negative repercussions for freedom of expression, 
assembly and privacy.
    Governments need to be transparent and accountable with the 
public about the nature and volume of requests being made to 
companies. Companies need to be able to uphold core principles 
of freedom of expression and privacy grounded in international 
human rights standards.
    Several major U.S.-based Internet companies have made 
commitments to uphold these rights as members of the multi-
stakeholder Global Network Initiative.
    Guidelines for implementing these commitments include 
narrowly interpreting government demands to restrict content or 
grant access to user data or communications, challenging 
government requests that lack a clear legal basis, transparency 
with users about the types of government requests received and 
the extent to which the company complies, and restricting 
compliance to the online domains over which the requesting 
government actually has jurisdiction.
    Third, liability for Internet intermediaries, including 
social networks, for users' behavior must be kept limited. 
Research conducted around the world by human rights experts and 
legal scholars shows clear evidence that when companies are 
held liable for users' speech and activity, violations of free 
expression and privacy can be expected to occur as companies 
preemptively and proactively seek to play it safe and remove 
anything that might get them in trouble.
    Limited liability for Internet companies is an important 
prerequisite for keeping the Internet open and free.
    Fourth, development and enforcement of companies' terms of 
service and other forms of private policing must also undergo 
human rights risk assessments.
    Any new procedures developed by companies to eliminate 
terrorist activity from their platforms must be accompanied by 
engagement with key affected stakeholders, at-risk groups and 
human rights advocates.
    Fifth, in order to prevent abuse and maintain public 
support for the measures taken, governments as well as 
companies must provide effective, accessible channels for 
grievance and remedy for people whose rights to free 
expression, assembly and privacy have been violated.
    Thank you for listening, and I look forward to your 
questions.
    [The prepared statement of Ms. MacKinnon follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. I thank all of our panelists for being here. I 
agree with you, Ms. MacKinnon. This is a very complex issue. I, 
like everybody else on the dais here, are great believers of 
the First Amendment.
    It is first because it is the most important, and anything 
Congress does to try to make exceptions is always suspect. But 
the Immigration and Nationality Act's Section 219 says that no 
one can aid a foreign terrorist organization.
    So we are not talking about some individual who makes some 
comments on the Internet that is tweeting something. The first 
requirement is that it is a foreign terrorist organization that 
is doing this.
    It seems to me that that legislation--giving aid to a 
foreign terrorist organization--was upheld in the Holder v. 
Humanitarian Law Project in 2010. I think that is the only case 
where the Supreme Court addressed the issue of Internet, free 
speech and foreign terrorist organizations.
    So we set aside all those other folks out there that are 
saying things on the Internet--I would like to just address 
that specific issue--foreign terrorist organization, a member 
of a foreign terrorist organization, recruiting folks in jihad, 
radical jihadists to kill other people, like Americans.
    What suggestions specifically other than the one Ms. 
MacKinnon has made--several that she has made--do any of the 
rest of you have on that specific issue? I know that companies 
vary and many are, I think, trying to cooperate and bring down 
these sites on their own.
    Mr. Kohlmann, would you like to weigh in on that question? 
Foreign terrorist organization, member of a foreign terrorist 
organization, using the Internet to recruit jihadists to kill 
folks, being very specific about that question.
    Mr. Kohlmann. Sure. I think to the average person, the idea 
of how would you find terrorist propaganda on Twitter or how to 
find the important parts, sounds like a gargantuan task.
    But the reality is is that the companies we are talking 
about already have the technology which is capable of doing 
this without human intervention. And how do I know that?
    It is the same reason that when you go on YouTube or 
Twitter you don't see child pornography. You don't see stolen 
commercial videos. There is a reason for that. It is not just 
happenstance.
    The reason is because of the fact that the companies that 
operate those social media platforms have a strict policy when 
it comes to things like child pornography and stolen 
copyrighted material and they have proactive means of removing 
them.
    The exact same way that they remove that material they can 
also remove terrorist propaganda. It is just a matter of 
switching the search terms, the hash values, the images that 
they are looking for. The answer is that they don't have an 
incentive to do that right now.
    Mr. Poe. And what should that incentive be?
    Mr. Kohlmann. Well, look. Right now there is no legal 
remedy for anyone in the event that these companies are hosting 
a terrorist Web site.
    I mean, Twitter has never been sued and it has never been 
held criminally liable or civilly liable by anyone. Why? The 
answer is because of the fact that--the way that it is right 
now--Internet hosting provider law is written so that an 
Internet hosting provider, if they don't have active knowledge 
of what is going on, they are not really responsible.
    And look, I don't want to crack down on the freedom of 
speech and I don't want to make Internet companies responsible 
for everything that their users do, when there are some things 
that their users do we will never really be able to know about.
    But there is a certain level of basic responsibility that 
companies like Twitter and CloudFlare are failing to meet. We 
are not asking that they find every single terrorist Web site 
or they shut down every single terrorist video, just to make a 
best effort. And anyone who says that the effort that is being 
made right now is a best effort has no idea what they are 
talking about.
    Mr. Poe. Okay. I have a question for you, Ambassador. Once 
again, I am talking specifically not about terrorists. I am 
talking about members of a foreign terrorist organization, 
which the law specifically addresses currently.
    Ambassador Wallace, the FBI follows these chats and they 
don't seem to encourage the bringing down of some of this 
Internet material because they want to follow the bad guys all 
over the world, what they are saying, who they are, et cetera.
    What is your reaction to that?
    Mr. Wallace. I think it is very clear that the intelligence 
value of having everything open and accessible is incredibly 
overstated. It is very much like, with due respect, the 
demagoguery associated that somehow we are all talking about 
impairing First Amendment rights.
    All of us support the First Amendment here but this isn't 
free speech. This is hate speech, and I think that, having 
previously served in our Government and having been a consumer 
of our intelligence data, we have so many good tools that allow 
us to track terrorists' activity that we don't need to solely 
rely on the open forums.
    The value of taking down these recruiters, these 
propagandizers, far exceeds the intelligence value that we 
would get from fully tracking all the individual users of 
social media.
    So I think it is very clear. Maybe at one point when there 
were only a few abusers a long time ago there might have been 
intelligence value. But right now, the Internet is awash with 
those that would propagandize, recruit and incite terror. We 
have to take these down, and as J.M. said, it matters. It has 
an effect.
    Mr. Poe. The Chair will yield to the ranking member 5 
minutes for his questions of the panel.
    Mr. Keating. Thank you, Mr. Chairman.
    One area, and I would initially do it with Mr. Berger 
because he alluded to metrics that were used themselves, but in 
your analysis, and I will throw it open to the other witnesses 
as well, part of the difficulty will be--you know, the chairman 
set one specific example but as you go along it becomes a 
little more difficult.
    What material, you know, and to what extent when you were 
looking at your metrics did you draw the line in some of these 
postings to have them fit into your analysis? You had to draw a 
line somewhere if you had metrics.
    Can you give us some examples of what, in your analysis, 
was on one side of the line and what was on the other?
    Mr. Berger. So for this particular paper what we wanted to 
do was----
    Mr. Poe. Would you speak up a little bit, please?
    Mr. Berger. Sure. I don't know if--okay.
    Mr. Poe. I am just a little deaf so talk louder, Mr. 
Berger.
    Mr. Berger. For this particular paper what we did was we 
wanted to identify people who were specifically ISIS supporters 
and not supporters of other jihadist groups.
    So what we developed was a metric to sort the 50,000 
accounts we had really robust information on and we evaluated 
them based on whether they appeared to be interested in just 
ISIS and whether they were promoting ISIS or whether they were 
more broadly interested in following jihadist activity.
    So in this case, we got very, very specific. What I will 
say about the intelligence question and the metrics in this 
kind of material is relevant to that it is possible to sift out 
the noise on here.
    So we did a demographic study that we will publish in 
detail on 20,000 ISIS supporters. But within that group it is 
eminently possible to zero in on who the media people are, on 
who the foreign fighters are, who is in the country, who is not 
in the country.
    You know, the issue that you run into with this is that you 
can't do it 100 percent. So we created a sample group to do our 
demographics as 20,000 accounts that is 95 percent ISIS 
supporters.
    So if you are going to approach this problem legislatively 
or encourage companies to take a more aggressive role, one of 
the things you have to do is figure out first where you are 
going to draw the line, whether it is going to be a member of 
the organization. There aren't 20,000 ISIS members on Twitter. 
There are 20,000 ISIS supporters that we can point to.
    So how much involvement do they have to have and how are we 
going to determine that without going in with a search warrant 
and really getting, you know, very invasive about how we are 
going to get that information out of the company.
    Mr. Keating. So you did it based on, you know, people that 
you identified through your analysis as ISIS. Can I just be a 
little more broader and thematic in this?
    Can you give me any examples just off the top of your head 
where it is clear, you know, where you are on one side of the 
line where it is a difficult choice, and the other side of the 
line when it isn't? Because those are the kind of decisions----
    Mr. Berger. Sure.
    Mr. Keating [continuing]. We might have to do it, and I 
would ask anyone if they wanted to venture in. Ms. MacKinnon, 
did you get a chance? Where would you say--can you give an 
example where it is clearly an issue where action should be 
taken and it is one where even though it might be a close call 
it is not?
    Ms. MacKinnon. I am not a counter terrorism expert so I am 
not going to go outside of my field of expertise. But I, 
certainly, can say that the question is: Who is going to make 
the determination where the line is drawn, right? Is it the 
company? Is it the government? Is it someone else? Is it an 
outside expert?
    Mr. Keating. And do they use a common----
    Ms. MacKinnon. And in order to determine what side of the 
line this person falls on, is the company going to need to 
conduct an investigation of that person and where they are 
coming from?
    This leads to an issue of there is already a great public 
backlash about the amount of information that companies are 
collecting on people and the way in which it is shared with law 
enforcement and national security.
    And so companies, in thinking about not just their domestic 
trust with users but their trust with international users which 
is the main growth area for all of these companies, are they 
going to have to start building their own profiles on, you 
know, users of interest in order to decide which side of the 
line they fall on.
    Mr. Keating. Okay. Let me just ask the other witnesses that 
we have. What could we do to establish those kind of guidelines 
that would be useful from company to company? Can it be done in 
a uniform way?
    Mr. Wallace. Sure, I will take a quick crack. Look, the 
clear line to us is incitement of violence, right? I mean, 
there are a lot of lawyers in the room. Incitement of violence, 
clearly, or terror is clear.
    Threatening to behead Fran Townsend on Twitter, I think, 
shouldn't be on Twitter. I think that is very clear and 
constitutes a bright line. I think we would all agree that 
shouldn't be there.
    Mr. Keating. But where it gets a little gray?
    Mr. Wallace. Where it gets a little bit gray is saying that 
you support these groups. I would say that now is the time to 
change. Inspire magazine is a classic example.
    This is a publication that has been providing material 
support for al-Qaeda for a long time. We have been tolerating 
it under the right of free expression.
    There is an excellent op-ed in the New York Times I think 2 
days ago that said, ``No more al-Qaeda magazines.'' I think now 
we can say that as it pertains to terrorist organizations, we 
have taken a decision that promoting these groups is a 
violation of law.
    We should not tolerate hate speech that supports these 
entities and we shouldn't allow the Internet versions of 
Inspire magazine.
    Mr. Keating. All right. I will just have this one comment, 
Mr. Chairman, and yield back. The answers were basically group 
centered, and when it comes to that we have to move forward 
somehow and grasp the content--maybe we will deal with that in 
a second round.
    I yield back, Mr. Chair.
    Mr. Poe. The Chair will recognize the gentleman from South 
Carolina, Mr. Wilson, for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    I thank all of you for being here today and I want to thank 
you, Ambassador, for pointing out the circumstances of Whac-A-
Mole because it seems like that is where we are. Then you 
proceeded that we can be successful and have been in blocking 
child pornography, drug sales, human trafficking.
    And, Mr. Kohlmann, thank you for pointing out about stolen 
copyrighted material. There is hope, and for the American 
people we need this because respecting, indeed, as Ms. 
MacKinnon has pointed out, the First Amendment rights that we 
so respect, certainly, that doesn't include promoting mass 
murder.
    And I just sincerely hope that with the good minds who are 
here that, indeed, positive programs can be developed. In fact, 
Ambassador, could you tell us about the Think Again campaign 
and has there been success or limitations based on that 
particular program by the State Department?
    Mr. Wallace. You know, there are various tools in the 
toolshed. One of them is the counter narrative argument and 
that has been the State Department's effort of trying to win 
the war of ideas.
    At the Counter Extremism Project, we take the position that 
we should be pursuing all items on the menu, order every item 
on the menu. And the counter-narrative option is important. 
Obviously, the State Department has had some fumbling around 
initially with the Think Again program; it has had some 
difficulty. Our focus right now is there are many tens of 
thousands of these actors on the Internet.
    I think if we focused on the seed accounts, those that are 
really driving this conversation, and work cooperatively with 
the online platforms and systematically took them down, it 
would provide opportunities for the State Department and others 
to engage in legitimate counter narrative conversations because 
they would have the advantage of not having the jihadis online.
    So I think this is something that we need to do 
collectively and collaboratively.
    Mr. Wilson. And, to me, it is so important that we counter 
the brainwashing messages that are utterly bizarre. A couple 
years ago I was in Pakistan and I was reading a newspaper that 
was very vibrant and seemed very positive and very open minded, 
and then I read an op-ed and it was accusing the United States 
of intentionally targeting mosques and all kind of bizarre 
accusations that had no basis at all in reality.
    And then I looked to see who the author of the article was: 
Fidel Castro. How would he know this? It was an utter 
fabrication. And so whoever would like to answer, how are our 
governments and civil service organizations using social media 
platforms to counter terrorist messaging and propaganda?
    Mr. Kohlmann. I would just say this. I would say that it is 
a great thing to counter terrorist propaganda. I would say that 
thus far the efforts of the State Department and social media 
to do this have not been very successful, and I can tell you 
that from directly studying them.
    Most of the time when State Department social media 
representatives get involved on jihadi forums or any forums 
that have people from the Middle East on them they have to 
identify themselves, first of all, as being State Department 
representatives, and that kind of ends the discussion right 
there because the rest of the people then start spouting off 
about--why is America sticking its nose in our business, and 
why are there spies observing our conversations and what not.
    So that program by and large, in my opinion, is a complete 
failure. The most successful single thing we can do to counter 
their ideology is show where the rubber meets the road. And 
what do I mean by that?
    Right now, ISIS and al-Qaeda, in particular AQAP, right now 
they are locked in this test of wills where they are putting 
out nasty, nasty stuff about each other on the Internet in 
English and Arabic and all sorts of languages.
    ISIS just put out a whole magazine in which they accused 
al-Qaeda and the Taliban of being deviant morons. Now, that is 
what needs to go out there. That is what we need to be 
rebroadcasting, the fact that these guys think that each other 
are a bunch of clowns.
    There is no honor in this. There is no courage or valor. 
They both think that they are idiots, and if you put that out 
there and you show that these guys are really amateurs, they 
are clowns, that most of the people that are involved in this 
don't even believe in the ideology, that is where you really 
crack the seal.
    That is where you start breaking the hold that these folks 
have in social media. You have to show that they are full of 
it, and they are, and the only way you can do that is by 
showing their own videos in which they are massacring people, 
massacring Muslims.
    There is no explanation for that anywhere in their 
propaganda. You have to show that. That is what weakens them.
    Mr. Wilson. Well, again, thank you, and--to show the truth. 
Thank you so much and, indeed, how sad it is that the chief 
victims of what is going on are fellow Muslims first. We seem 
to be second. Thank you.
    Mr. Poe. The Chair recognizes the gentleman from 
California, Mr. Sherman, for 5 minutes.
    Mr. Sherman. I want to focus first on getting our message 
out. The Internet as a tool favors the side that is trying to 
get information out and puts grave, both legal questions and 
technological questions, and just Whac-A-Mole difficulties on 
somebody who is trying to keep information from getting out. So 
if we can get our message to defeat their message the 
technology is with us.
    I want to bring to the attention of this subcommittee 
something I have mentioned, I think, in the full committee and 
that is the State Department refuses to hire a single Islamic 
expert, not a single person who is really qualified to quote 
Hadith and Koranic verses. Not one.
    And so we are in a circumstance where we think the best 
argument to use on those who are close to embracing Islamic 
extremism is to say they kill children, isn't that obviously 
bad?
    Well, in the world of Islamic extremists maybe that is not 
one of the top 10 sins. If we had some understanding of basic 
Islam and then extremist Islam from people who are not just 
passing knowledge but are people who have memorized the Koran 
then we can do a much better job.
    But that would mean taking State Department jobs away or at 
least one away from people with fancy degrees from U.S. and the 
Western European universities, and it has been completely 
rejected by the State Department, who thinks they are going to 
make arguments thought of in our minds to people of a 
completely different mindset.
    So, I mean, these are folks who barely know enough not to 
hold a get-together with ham sandwiches and beer to discuss 
what Islam does not allow, okay?
    Mr. Kohlmann, do they have the technology not only to 
deactivate a particular user but to deactivate that IP address, 
that computer, so that they can't just log in from that 
particular site and give a different name?
    Mr. Kohlmann. One hundred percent, and----
    Mr. Sherman. Do they use it?
    Mr. Kohlmann. No, and I--that is----
    Mr. Sherman. Wait a minute. So you go online and you put up 
something so bad that Twitter actually does take you down.
    Mr. Kohlmann. They don't ban the IP, no.
    Mr. Sherman. You eat lunch, you go back on, you use the 
same computer to put up similar material but you identify 
yourself as, you know, with a different name and they leave you 
up?
    Mr. Kohlmann. There is a jihadist that just commented the 
other day. He actually tweeted at Twitter and said why don't 
you just stop this pantomime and stop doing this whole thing 
where you shut down our accounts occasionally; it just takes us 
2 minutes to create a new account when you shut one down. 
They----
    Mr. Sherman. And they can do it from the same computer? 
Okay.
    Mr. Kohlmann. Yes. Twitter doesn't look at these kind of 
things because, again, they don't have any incentive to.
    Mr. Sherman. Well, that raises the next issue and that is 
how do we put the right kind of pressure on these 
organizations. At a minimum, this subcommittee ought to be 
involved in naming and shaming.
    But then you go beyond that to perhaps changing our tax 
laws, which doesn't raise some of the same First Amendment 
arguments, or otherwise penalizing those that carry the message 
at least when the author is an identified foreign terrorist 
organization, because that doesn't require delving into content 
and parsing words.
    Even if it is just weather reports from Mosul, if they are 
brought to you by ISIS, they shouldn't be on Twitter. Just to 
give you an illustration of how difficult it is to get our law 
enforcement authorities to take seriously anything that is a 
few steps away from the dead body, something that is in the 
realm of finance and propaganda, I brought to the attention of 
Eric Holder himself a video showing Americans in Orange County 
raising money for Hamas.
    They still haven't even lost their tax exemption so we are 
subsidizing it, and the Americans who were on the flotilla that 
took building materials to Gaza and turned them over to Hamas, 
not even a letter of inquiry.
    So we live in this world where, yes, if we see you with a 
gun or a bomb we know you are a threat but if you violate our 
clearest laws but you are white collar, we don't want to do 
anything.
    So I realize it is going to be tougher to get these, to 
force by rule of law taking down certain messages because, 
where do you draw the line between those who advocate for ISIS 
and those who say, well, ISIS isn't quite as bad as Brad 
Sherman says they are?
    But we can certainly take down anything that claims, 
whether it is true or not, to be posting to a foreign terrorist 
organization. Ms. MacKinnon, you haven't commented. You have 
been an advocate for privacy here. Why not just take it down if 
it says brought to you by any organization on the U.S. foreign 
terrorist organization list?
    Ms. MacKinnon. Well, I think at root here we have a trust 
problem that is going three ways. I think that there has been 
sort of a history over the last couple of years of Internet 
companies, particularly in light of the Snowden revelations, of 
feeling that they need to restore trust with their users in 
terms of what kinds of information they are handing over to the 
government, what kinds of requests they are responding to and 
so there is an incentive on the part of the companies not to 
comply further.
    Mr. Sherman. My time has expired. But if these rich 
companies making a fortune can't lose a few percentage points 
on their profit to help us in the war on terrorism, there is 
something the matter with their souls, and I yield back.
    Mr. Poe. The Chair will recognize the gentleman from Texas, 
Mr. Castro, for 5 minutes.
    Mr. Castro. Thank you, Chairman Poe. Thank you to each of 
the panelists who are here to testify before us. We appreciate 
you being here and your sharing your wisdom.
    You know, I think, like most Americans, after there is an 
attack in Paris, for example, the Boston bombing, and we see 
people take credit for that on Twitter--one of the social media 
sites--you ask yourself, you know, why the hell do these people 
have a Twitter account or a Facebook account. I think that is 
what the average American thinks.
    So I certainly support asking Twitter to be cooperative in 
developing protocols to make sure that we root some of this 
stuff out, as you have suggested, that Facebook and others 
have. And so I have a few questions, though.
    Have they done that for any nation? Are there different 
rules in the United States versus Europe, for example, or 
somewhere else?
    Mr. Kohlmann. As far as I am aware, there are no different 
rules in terms of terrorist organizations. It really seems--
especially, at least as we take the example of Twitter. 
Twitter, generally speaking, only takes action when there is a 
public embarrassment, when there is a public spectacle. So when 
the James Foley video came out, all of a sudden you see public 
comments from Jack Dorsey.
    You see Twitter all of a sudden rashly knocking out a whole 
bunch of accounts, and then all of a sudden silence for months. 
Then, all of a sudden, there will be a new video that will make 
it to a front page headline on CNN or MSNBC, and then once 
again Twitter will go on a rampage for a week. But, again, that 
is just for----
    Mr. Castro. Let me ask Ms. MacKinnon and anyone can chime 
in.
    Ms. MacKinnon. Sure. Yes. A lot of these companies--
Twitter, Facebook and Google, in particular, that I have some 
familiarity with--generally have policies around the world 
where they will, in countries where they have operations, 
respond to lawful requests--so requests that are made in 
accordance with local law officially, you know, in writing.
    Mr. Castro. Right.
    Ms. MacKinnon. But if those requests do not have legal 
basis in that jurisdiction, they will not comply. Then, of 
course, they have terms of service that restrict speech that 
may or may not be legal in a given place.
    Mr. Castro. Well, I guess, and I think this is a tough 
question because the United States and Americans, obviously, 
value the First Amendment a lot and you have to start making a 
distinction between what crosses over from speech to getting 
closer to expression and action.
    For example, I know that somebody on the panel made the 
comment that this is hate speech and I would agree that a lot 
of it is. But there is a lot of hate speech on the Internet.
    And so, for example, how do you make the distinction 
between Islamic terrorism and domestic terrorism? When there 
were thousands of children who were coming across the U.S.-
Mexico border, turning themselves over to Border Patrol, there 
were organized militias that were organizing on Twitter and 
Facebook and all the social media sites to go down there with 
arms, with weapons, and a few of them had confrontation with 
law enforcement.
    So how do you draw that distinction? Or are we just going 
to say as Americans we are going to do it for Islamic terrorism 
but we are not going to draw a line for domestic terrorism?
    I think those are some of the tough questions that we have 
got to answer among ourselves. And, like I said, I support 
movement and action on this issue. I think it is prudent. But 
there are some very deep and very tough questions that we need 
to answer.
    Mr. Berger. I just wanted to say there are some precedents 
for this. I mean, so, for instance, France has a law against 
anti-Semitic speech and Twitter was complying with that law to 
provide information on users.
    You know, the other thing that I think is not necessarily 
informing the conversation we are having here right now is that 
Facebook, YouTube and Twitter do cooperate with law enforcement 
requests to some extent and they do take accounts down based on 
government requests, to some extent.
    One reason we don't know about that is because a lot of 
that happens under national security letters and other forms of 
requests that they are not allowed to disclose, and one thing 
that would help us understand this better is if they were 
allowed to have a little more transparency about----
    Mr. Castro. Sure. Maybe let Ambassador Wallace also.
    Mr. Wallace. Good to see you, Congressman.
    Mr. Castro. Yes.
    Mr. Wallace. Look, I fully agree. But I don't think that we 
need to reinvent the definition of hate speech in this hearing. 
There has been an entire body of constitutional law that has 
developed around hate speech and that has been pretty clear.
    So I agree with you, sir, that hate speech is hate speech. 
It should come down and we should take action on hate speech. 
It shouldn't be allowed.
    But I think we are looking for a bright line, Mr. Keating. 
You know, I think that the distinction of the well-developed 
law on hate speech is take down those that are designated 
terrorist organizations, those that provide material support, 
whether it is ideological or otherwise, we have said that those 
actors are doing things that are hateful, for lack of a 
better----
    Mr. Castro. Designated by the United States Government?
    Mr. Wallace. Correct. Correct. And I think that it should 
be without doubt that if it is an AQAP supporter or an ISIS 
supporter or Inspire magazine, they should come down now. But I 
fully agree with you, Congressman. You know, hate speech is 
hate speech.
    Mr. Castro. Can I ask one more question?
    Mr. Poe. Sure.
    Mr. Castro. But would you put the same restrictions on an 
organization that is going to recruit another Timothy McVeigh 
or Terry Nichols?
    Mr. Wallace. Yes.
    Mr. Castro. Well, but that is not part of this 
conversation, right?
    Mr. Wallace. Well----
    Mr. Castro. So you start getting into a broader--and I 
agree. I just think you start getting into a broader 
conversation of moving it beyond Islamic terrorism into 
domestic terrorism also.
    Mr. Wallace. Right. I mean, Congressman, you and I have 
spent much time together. I think everyone agrees on the nature 
of bad actors like Timothy McVeigh.
    But right now, we have to be honest with ourselves that the 
grave national security concern, the threat to global security, 
are these cyber jihadis that are propagandizing.
    I certainly don't want to minimize in any way that the next 
Timothy McVeigh that we should allow him to stand or somebody 
else who would brutally seek to harm lawful or unlawful 
immigrants.
    We shouldn't. But, obviously, the focus right now has been 
because of--there are so many examples. So I don't mean to 
diminish----
    Mr. Castro. Sure. No, no, no.
    Mr. Wallace [continuing]. Those examples in any way, sir, 
and I fully agree with you, of course.
    Mr. Castro. Yes. Sure. Thank you.
    Mr. Poe. The gentleman yields back. We are in the middle of 
votes. One last comment, then I will yield to the ranking 
member for a final comment as well.
    The law makes a distinction between a foreign terrorist 
organization and non-organization using the Internet including 
domestic terrorist organizations. Those types of organizations, 
my understanding, you cannot provide any assistance, even 
helpful assistance.
    Like in the Holder v. Humanitarian Law Project, they 
weren't advocating terrorism. They were advocating peace. But 
the Supreme Court said you cannot assist a foreign terrorist 
organization and it is a violation of the Section 219 of the 
law whether it is peace or advocating jihadist movements, and I 
think Congress has an obligation to look into this whole matter 
and try to see if we need to get involved.
    As Mr. Berger pointed out, some of these organizations--
Google, for example--are doing what they can when asked to or 
on their own to take down some of these sites. Twitter, not so 
much.
    But I appreciate all four of you being here and the 
comments, I think, by the panelists and by the members were 
excellent. And I will yield the last comment--give you the last 
word, something I never do.
    Mr. Keating. Never done, and I appreciate that. I am sure 
it is just because it is my first hearing.
    Mr. Poe. It is.
    Mr. Keating. I just want to thank--this has been an 
important hearing, I think, and a frustrating one because it is 
sort of like trying to grasp a watermelon seed. Once you think 
you have it, it slips through your fingers again.
    But it is important to begin this dialogue, and there are 
some areas, I have learned today, that can be helpful where 
maybe we can limit to specific, you know, groups or individuals 
and not get involved in some of the other issues.
    But even that becomes complex because the difficulty of 
dealing with different languages, different laws and different 
countries makes it become very difficult.
    But I think one thing we can agree on it is important for 
us all going forward to try and get our hands around this a 
little bit and to see what we can do, whether it is hate speech 
or existing law.
    But, you know, you have got companies. You are their guests 
on those--you know, of those companies as well. So I think that 
working with the private side, having those discussions, will 
really serve a great benefit and I hope today was a time that 
we can refocus on this from such a broad perspective, as 
frustrating as the conversation was. Thank you all for being 
here.
    Mr. Poe. I thank all four of you for being here. It is very 
important information you have given us. I thank the members 
for participating as well, and the subcommittee is adjourned. 
Thank you very much.
    [Whereupon, at 3:50 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                    Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
                                 [all]
</pre></body></html>
